OIG Investigative Reports Press Release Cleveland OH., 09/19/2013 -  Cleveland Man Sentenced To Four Years In Prison For Mortgage Fraud, Other Crimes
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
THE UNITED STATES ATTORNEY'S OFFICE
NORTHERN DISTRICT of OHIO
NEWS
Cleveland Man Sentenced To Four Years In Prison For Mortgage Fraud, Other Crimes
FOR IMMEDIATE RELEASE
Sept 19, 2013
A former paid cooperator for a federal law enforcement agency was sentenced to more than four years in prison today for a variety of crimes related to a mortgage-fraud scheme, said Steven M. Dettelbach, United States Attorney for the Northern District of Ohio, and Stephen D. Anthony, Special Agent in Charge of the FBI's Cleveland office.
Paul R. Tomko, age 40, of Cleveland, pleaded guilty in March to one count of conspiracy to commit wire fraud and wire fraud, two counts of wire fraud, one count of student loan fraud and one count of concealment.
U.S. District Judge Christopher Boyko sentenced Tomko to 52 months in prison and ordered him to pay $327,044 in restitution.
"Paul Tomko has been sentenced, yet again, for being a fraudster to the tune of hundreds of thousands of dollars," Anthony said. "The FBI hopes he has finally learned his lesson."
Tomko pleaded guilty in 2009 to charges related to a mortgage fraud scheme and was sentenced to three years probation in the United States District Court for the Northern District of Ohio, in Case No.1:09CR29, according to court documents.
In 2007, Tomko had signed a paid cooperation agreement with a federal law enforcement agency wherein Tomko was to take full responsibility and make full disclosure of his own mortgage fraud-related violations and assist that agency in other mortgage fraud investigations. Tomko was paid approximately $19,500 in 2007 and $7,500 in 2008 by that agency under their agreement. Tomko concealed this income from the Probation Department and also falsely stated that the law enforcement agency had approved Tomko operating a mortgage business (The Mortgage House) from his residence, according to court documents.
Tomko, through his company, OKMOT ("Tomko" backwards) Real Estate Company, recruited his housekeeper to apply for fraudulent mortgage loans for four properties between 2006 through 2007. Tomko falsely inflated the income and assets of his housekeeper in order for her to qualify for these loans, according to court documents.
Once the loans closed, Tomko fraudulently received approximately $100,000 of the proceeds by filing mechanics liens for work not performed and directing funds to himself and/or companies he owned and controlled, as well as to others not charged in this conspiracy, according to court documents.
Tomko concealed income he received as a cooperator from a federal law enforcement agency, in order to fraudulently obtain student aid and grants from the United States Department of Education, according to court documents.
The case is being prosecuted by Assistant U.S. Attorneys Christian H. Stickan and Christos M. Georgalis, following investigation by agents of the FBI, Cleveland Office and The Office of the Inspector General for the United States Department of Education.
Top
Printable view
Last Modified: 09/30/2013
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov